                    U.S. DEPARTMENT OF LABOR
                 EVALUATION OF GRANT CLOSEOUT
                      PRACTICES APPLIED TO
              JOB TRAINING PARTNERSHIP ACT GRANTS

            GRANTS AWARDED TO THE STATE OF HAWAII

               INDEPENDENT ACCOUNTANTS’ REPORT
              ON APPLYING AGREED-UPON PROCEDURES




                   JULY 1, 1997 THROUGH JUNE 30, 2000




R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.


                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor




                                                    Report No.: 04-03-016-03-340
                                                    Date Issued: May 5, 2003


                   R. NAVARRO & ASSOCIATES, INC.
                                                   TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING AGREED-UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS .......................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 3

          BACKGROUND ................................................................................................................ 3

          OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 3

PROCEDURES AND FINDINGS.................................................................................................. 4

EXHIBIT I – COMPLETE TEXT OF THE STATE OF HAWAII’S RESPONSE........................7




                                                                     ii
                                  ACRONYMS



CFR    Code of Federal Regulations
DOL    U.S. Department of Labor
ETA    Employment and Training Administration
FSR    Financial Status Report
FY     Fiscal Year
JTPA   Job Training Partnership Act
NOO    Notice of Obligation
OIG    Office of the Inspector General
PY     Program Year
SFY    State Fiscal Year
SEFA   Schedule of Expenditures of Federal Awards
WIA    Workforce Investment Act




                                         iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                       INDEPENDENT ACCOUNTANTS= REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this
report. The U.S. Department of Labor (DOL), Office of Inspector General (OIG), agreed to these
procedures. We completed the procedures solely to assist OIG in evaluating the State of
Hawaii’s closeout practices for Job Training Partnership Act (JTPA) grants awarded by the DOL
Employment and Training Administration (ETA) from July 1, 1997 through June 30, 2000.

Management of the State of Hawaii is responsible for closing JTPA grants in accordance with
applicable regulations and requirements established by ETA. ETA is responsible for processing
and certifying grant closure, and recording final obligation, expenditure and payment information
in the DOL’s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants, and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on the accompanying information obtained from the respective
entities. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.


May 16, 2002
                                  SUMMARY OF FINDINGS


The State of Hawaii submitted its Job Training Partnership Act (JTPA) closeout package to the
U.S. Department of Labor (DOL), Employment and Training Administration (ETA), on
December 29, 2000. We identified the final JTPA expenditures reported on the closeout report,
and found that the expenditures reported reconciled to the State’s accounting records. In
addition, the final expenditures reported were reasonable based on amounts previously reported
to ETA.

The JTPA program was audited as a major program in the State’s single audits for State Fiscal
Year (SFY) 1999 and SFY 2000. The SFY 2000 single audit report did not have any findings
related to the JTPA program.

We visited one subrecipient, and found that final expenditures reported to the State reconciled to
the subrecipient’s accounting records.


State of Hawaii’s Response

Hawaii’s Department of Labor and Industrial Relations did not have any written comments to our
draft report. Hawaii’s response is included in its entirety at Exhibit I.




                                                2
             BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the State of Hawaii closed its JTPA
grants on a timely basis in accordance with ETA instructions; amounts reported in the closeout
packages and/or the final cost reports were reasonable and supported by the State=s and
subrecipients’ accounting records; and there were unresolved audit findings pertaining to JTPA
awards.

Our agreed-upon procedures include the JTPA funds awarded to the State of Hawaii for PYs
1997, 1998 and 1999, and FYs 1997 and 1998. Procedures were applied to grant activities
reported by the State and one subrecipient, City and County of Honolulu, on final closeout
reports.




                                               3
                            PROCEDURES AND FINDINGS


1.   Identify the State’s JTPA grants to be included in the scope of these procedures, and
     the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the State of Hawaii and included in the scope of these
     procedures are as follows:

                                                Per Grantee Close-out
                           Federal                                                 Net
                          Obligations      Total Reported      Inter-title     Expenditures
      Year and Title      Authority         Expenditures       Transfers      (Computed)

      FY 97 IIB             $ 3,714,505         $ 3,099,505    $ (615,000)      $ 3,714,505
      PY 97 II & IIIF        10,036,389          10,634,561        615,000       10,019,561
      FY 98 IIB               4,262,082           3,397,082     (865,000)         4,262,082
      PY 98 II & IIIF        12,798,537         13,305,242         865,000      12,440,242
      PY 99 IIB & IIC         5,422,065           5,112,869        98,318         5,014,551
      PY 99 IIA& IIIF        14,671,139          10,115,661        (98,318)      10,213,979
       Total                $50,904,717         $45,664,920    $         0      $45,664,920

2.   Determine if the JTPA grants awarded to the State were closed on a timely basis in
     accordance with ETA instructions.

     The State of Hawaii submitted the final JTPA closeout on December 29, 2000, which was
     within the time frame established by ETA.

3.   Inspect the closeout information reported to ETA, and determine if the information
     appears reasonable in comparison to data previously reported on final FSRs.

     The State of Hawaii submitted final FSRs with the closeout package; consequently, there
     were no differences between the FSRs and the closeout. As an alternative procedure, we
     inspected JTPA reconciliation worksheet prepared by ETA which identified the final cost
     entries required to be recorded in the DOL’s general ledger. This worksheet did not
     identify significant adjustments to previously recorded grant costs. Accordingly, the
     amounts reported on the closeout package are considered to be reasonable based on
     amounts previously reported to ETA.




                                            4
4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the State’s accounting records.

     We compared the JTPA expenditures reported to the DOL on the closeout package to
     expenditures recorded in the State’s accounting records, and found that the amounts
     reported reconciled to the State’s official records.

5.   Select a sample of four final closeout reports submitted by subrecipients to the State,
     and determine if the subrecipients’ final JTPA expenditures were accurately
     recorded in the State’s accounting records.

     We obtained closeout reports submitted to the State by four subrecipients, and compared
     the final expenditures reflected on the closeout reports to expenditures recorded in the
     State’s accounting records. In all cases, the final subrecipient expenditures were
     accurately recorded in the State’s accounting records.

6.   Obtain the State’s single audit reports submitted for the two most recent fiscal years
     available, and identify the JTPA expenditures reported on the Schedule of
     Expenditures of Federal Awards (SEFA). Determine if these funds were tested as a
     major program, in accordance with single audit requirements.

     We obtained the State’s single audit reports for SFY 1999 and SFY 2000, and identified
     the total JTPA expenditures reported on the Schedule of Expenditures of Federal Awards,
     $18.3 million and $17.1 million, respectively. The JTPA program cluster was listed as a
     major program for both fiscal years.

7.   Determine if the single audit reports identified reportable conditions, material
     weaknesses, report qualifications, or any other audit issues pertaining to JTPA
     grants that remain unresolved.

     The State’s Single Audit Report for FY 2000 (most recent available) did not identify any
     unresolved reportable conditions, material weaknesses, report qualifications or other audit
     issues related to the JTPA program.

8.   Obtain the final cost reports submitted by one subrecipient and determine if the
     amounts reported were supported by the subrecipient’s accounting records.

     We visited one subrecipient, the City and County of Honolulu, representing 53 percent of
     the JTPA final closeout expenditures reported by the State of Hawaii. For the
     subrecipient, we compared the final JTPA expenditures reported to the State to
     expenditures recorded in the subrecipient’s accounting system, and found that the
     amounts reconciled.




                                              5
9.    Obtain the subrecipient’s single audit reports (most recent available) and identify
      the JTPA expenditures reported on the Schedule of Expenditures of Federal
      Awards. Determine if the amounts agree or were reconciled by the single auditors
      to the expenditures recorded in the accounting records.

      We obtained the FY 2000 and FY 1999 single audit reports for the subrecipient visited
      (most recent available) and identified the JTPA expenditures reported on the SEFA. We
      compared JTPA expenditures reported on the SEFA to those recorded in the
      subrecipient’s accounting records, and found no significant differences.

10.   Inspect the single audit reports submitted for the subrecipient and determine if
      there were reportable conditions, material weaknesses, report qualifications, or
      other audit issues pertaining to JTPA grants that remain unresolved.

      We obtained the single audit reports for the subrecipient visited, and determined that the
      reports did not identify any unresolved reportable conditions, instances of noncompliance,
      report qualifications or other audit issues which pertained to the JTPA program.




                                              6
                                                                               EXHIBIT I

                         THE COMPLETE TEXT OF
                      HAWAII’S RESPONSE TO THE DRAFT
                     AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Hawaii’s response to our agreed-upon
procedures report, issued to them on February 11, 2003.




                                        7
8
